uw ATTORNEYS AT LAW

a SUITE 5000
150 EAST GILMAN STREET
MADISON, Wi 53703-1482

FOLEY & LARDNER LLP POST OFFICE BOX 1497
MADISON, WI 53701-1497
608.257.5035 TEL
608.258.4258 FAX
WWW.FOLEY.COM

WRITER'S DIRECT LINE

608.258.4273
rhowell@foley.com EMAIL

CLIENT/MATTER NUMBER
086280-0109

January 22, 2020

By Hand Delivery and Electronic Filing
Scott S. Harris

Clerk of Court

Supreme Court of the United States
One First Street, NE

Washington, DC 20543-0001

Re: — Jarchow v. State Bar of Wisconsin, No. 19-831
Dear Mr. Harris:

I represent the Respondents in the above-captioned case, which was docketed on
January 2, 2020. I respectfully request a 30-day extension of time, to and including March 4, 2020,
in which to file the brief in opposition currently due on February 3, 2020.

A 30-day extension to and including March 4, 2020 will ensure that we have
sufficient time to fully analyze and respond to the arguments raised in the petition for certiorari in

this case.

Sincerely,

obate wer

Roberta F. Howell
Ce: David B. Rivkin, Jr.
Counsel for Petitioners

RFH:acg
AUSTIN DETROIT MEXICO CITY SACRAMENTO TAMPA
BOSTON HOUSTON MIAMI SAN DIEGO WASHINGTON, D.C.
CHICAGO: JACKSONVILLE MILWAUKEE SAN FRANCISCO BRUSSELS
DALLAS LOS ANGELES: NEW YORK SILICON VALLEY TOKYO
DENVER MADISON ORLANDO TALLAHASSEE

4821-4742-6992.1
